                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




                                   Final Audit Report

Subject:


 AUDIT OF THE INFORMATION TECHNOLOGY
         SECURITY CONTROLS OF THE
 U.S. OFFICE OF PERSONNEL MANAGEMENT’S
INVESTIGATIONS, TRACKING, ASSIGNING AND
            EXPEDITING SYSTEM
                   FY 2014
                                           Report No. 4A-IS-00-14-017


                                                                 April 3, 2014




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                       Audit Report

                              U.S. OFFICE OF PERSONNEL MANAGEMENT
                                -------------------------------------------------------------
                 AUDIT OF THE INFORMATION TECHNOLOGY SECURITY
                    CONTROLS OF THE U.S. OFFICE OF PERSONNEL
                MANAGEMENT’S INVESTIGATIONS, TRACKING, ASSIGNING
                              AND EXPEDITING SYSTEM
                                           FY 2014
                                --------------------------------
                                  WASHINGTON, D.C.




                                          Report No. 4A-IS-00-14-017


                                           Date:                04/03/14




                                                                                     Michael R. Esser
                                                                                     Assistant Inspector General
                                                                                       for Audits

                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                    Executive Summary

                      U.S. OFFICE OF PERSONNEL MANAGEMENT
                       -------------------------------------------------------------
             AUDIT OF THE INFORMATION TECHNOLOGY SECURITY
                CONTROLS OF THE U.S. OFFICE OF PERSONNEL
            MANAGEMENT’S INVESTIGATIONS, TRACKING, ASSIGNING
                          AND EXPEDITING SYSTEM
                                       FY 2014
                            --------------------------------
                              WASHINGTON, D.C.




                               Report No. 4A-IS-00-14-017


                               Date:             04/03/14

This final audit report discusses the results of our audit of the information technology security
controls of the U.S. Office of Personnel Management’s (OPM) Investigations, Tracking,
Assigning and Expediting (iTRAX) System. Our conclusions are detailed in the “Results”
section of this report.

Security Assessment and Authorization (SA&A)
An SA&A of iTRAX was completed in October 2013. We reviewed the authorization package
for all required elements of an SA&A, and determined that the package contained all necessary
documentation.

Federal Information Processing Standards (FIPS) 199 Analysis
The security categorization of iTRAX appears to be consistent with FIPS 199 and National
Institute of Standards and Technology (NIST) Special Publication (SP) 800-60 requirements, and
we agree with the categorization of “high.”

System Security Plan (SSP)
The iTRAX SSP contains the critical elements required by NIST SP 800-18 Revision 1.
                                                    i
Security Assessment Plan and Report
A security control assessment plan and report were completed in June and October 2013 for
iTRAX as a part of the system’s SA&A.

Security Control Self-Assessment
Federal Investigative Services ensures that annual security control self-assessments are
conducted in accordance with OPM policy.

Contingency Planning and Contingency Plan Testing
A contingency plan was developed for iTRAX that is in compliance with NIST SP 800-34
Revision 1 and is tested annually.

Privacy Impact Assessment (PIA)
A privacy threshold analysis was conducted for iTRAX and indicated that a PIA was required.
A PIA was conducted in June 2013.

Plan of Action and Milestones (POA&M) Process
The iTRAX POA&M follows the format of the OPM POA&M guide, and has been routinely
submitted to the OCIO for evaluation.

NIST SP 800-53 Revision 3 Evaluation
We evaluated the degree to which a subset of the IT security controls outlined in NIST SP 800-
53 Revision 3 was implemented for iTRAX. We determined that several controls could be
improved.




                                                ii
                                                                 Contents
                                                                                                                                               Page
Executive Summary ......................................................................................................................... i
Introduction ......................................................................................................................................1
Background ......................................................................................................................................1
Objectives ........................................................................................................................................1
Scope and Methodology ..................................................................................................................2
Compliance with Laws and Regulations..........................................................................................3
Results ..............................................................................................................................................4
     I. Security Assessment and Authorization ................................................................................4
    II. FIPS 199 Analysis .................................................................................................................4
   III. System Security Plan ............................................................................................................4
  IV. Security Assessment Plan and Report ...................................................................................5
    V. Security Control Self-Assessment .........................................................................................5
  VI. Contingency Planning and Contingency Plan Testing ...........................................................6
 VII. Privacy Impact Assessment ...................................................................................................6
VIII. Plan of Action and Milestones Process ..................................................................................7
  IX. NIST SP 800-53 Revision 3 Evaluation ................................................................................7
Major Contributors to this Report ..................................................................................................11
  Appendix: Federal Investigative Services’ February 19, 2014 response to the draft audit
            report, issued January 28, 2014
                                         Introduction
On December 17, 2002, President Bush signed into law the E-Government Act (P.L. 107-347),
which includes Title III, the Federal Information Security Management Act (FISMA). It requires
(1) annual agency program reviews, (2) annual Inspector General (IG) evaluations, (3) agency
reporting to the Office of Management and Budget (OMB) the results of IG evaluations for
unclassified systems, and (4) an annual OMB report to Congress summarizing the material
received from agencies. In accordance with FISMA, we audited the information technology (IT)
security controls related to the Office of Personnel Management’s (OPM) Investigations,
Tracking, Assigning and Expediting (iTRAX) System.

                                         Background
iTRAX is one of OPM’s critical IT systems. As such, FISMA requires that the Office of the
Inspector General (OIG) perform an audit of IT security controls of this system, as well as all of
the agency’s critical systems, on a rotating basis.

The iTRAX web-based application is designed to support delivery of services to the Federal
Investigative Service (FIS), which is responsible for delivery of investigative products and
services that ensure federal agencies have the data needed on which to base determinations of
eligibility for a security clearance or suitability for employment in sensitive positions. The
system is operated and hosted by an OPM contractor, CACI, on behalf of FIS.

This was our first audit of the security controls surrounding iTRAX. We discussed the results of
our audit with FIS representatives at an exit conference.

                                          Objectives
Our objective was to perform an evaluation of the security controls for iTRAX to ensure that FIS
officials have managed the implementation of IT security policies and procedures in accordance
with standards established by FISMA, the National Institute of Standards and Technology
(NIST), the Federal Information System Controls Audit Manual (FISCAM) and OPM’s Office of
the Chief Information Officer (OCIO).

OPM’s IT security policies require owners of all major information systems to complete a series
of steps to (1) certify that their system’s information is adequately protected and (2) authorize the
system for operations. The audit objective was accomplished by reviewing the degree to which a
variety of security program elements have been implemented for iTRAX, including:

•   Security Assessment and Authorization;
•   FIPS 199 Analysis;
•   Risk Assessment;
•   System Security Plan;
•   Security Assessment Plan and Report;
•   Security Control Self-Assessment;
•   Contingency Planning and Contingency Plan Testing;
•   Privacy Impact Assessment;
                                                 1
•   Plan of Action and Milestones Process; and
•   NIST Special Publication (SP) 800-53 Revision 3 Security Controls.

                                Scope and Methodology
This performance audit was conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Accordingly, the audit included an
evaluation of related policies and procedures, compliance tests, and other auditing procedures
that we considered necessary. The audit covered FISMA compliance efforts of FIS officials
responsible for iTRAX, including IT security controls in place as of December 2013.

We considered the iTRAX internal control structure in planning our audit procedures. These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.

To accomplish our objective, we interviewed representatives of OPM’s FIS and CACI
employees with iTRAX security responsibilities. We reviewed relevant OPM IT policies and
procedures, federal laws, OMB policies and guidance, and NIST guidance. As appropriate, we
conducted compliance tests to determine the extent to which established controls and procedures
are functioning as required.

Details of the security controls protecting the confidentiality, integrity, and availability of
iTRAX are located in the “Results” section of this report. Since our audit would not necessarily
disclose all significant matters in the internal control structure, we do not express an opinion on
the iTRAX system of internal controls taken as a whole.

The criteria used in conducting this audit include:

•   OPM Information Security Privacy and Policy Handbook;
•   OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
•   E-Government Act of 2002 (P.L. 107-347), Title III, Federal Information Security
    Management Act of 2002;
•   The Federal Information System Controls Audit Manual;
•   NIST SP 800-12, An Introduction to Computer Security;
•   NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal Information
    Systems;
•   NIST SP 800-30 Revision 1, Guide for Conducting Risk Assessments;
•   NIST SP 800-34 Revision 1, Contingency Planning Guide for Federal Information Systems;
•   NIST SP 800-37 Revision 1, Guide for Applying Management Framework to Federal
    Information Systems;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems and Organizations;
•   NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories;
•   NIST SP 800-84, Guide to Test, Training, and Exercise Programs for IT Plans and
    Capabilities;

                                                 2
•   Federal Information Processing Standards Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems; and
•   Other criteria as appropriate.

In conducting the audit, we relied to varying degrees on computer-generated data. Due to time
constraints, we did not verify the reliability of the data generated by the various information
systems involved. However, nothing came to our attention during our audit testing utilizing the
computer-generated data to cause us to doubt its reliability. We believe that the data was
sufficient to achieve the audit objectives. Except as noted above, the audit was conducted in
accordance with generally accepted government auditing standards issued by the Comptroller
General of the United States.

The audit was performed by the OPM Office of the Inspector General, as established by the
Inspector General Act of 1978, as amended. The audit was conducted from November 2013
through January 2014 in CACI’s Chantilly, Virginia facility and OPM’s Washington, D.C.
office. This was our first audit of the security controls surrounding iTRAX.

                    Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether FIS management of iTRAX is
consistent with applicable standards. Nothing came to our attention during this review to
indicate that FIS is in violation of relevant laws and regulations.




                                               3
                                               Results
 I. Security Assessment and Authorization
    A Security Assessment and Authorization (SA&A) of iTRAX was completed in October 2013.

    OPM’s Chief Information Security Officer reviewed the iTRAX SA&A package and signed the
    system’s authorization letter on October 28, 2013. The system’s authorizing official signed the
    letter and authorized the continued operation of the system on October 30, 2013.

    NIST SP 800-37 Revision 1 “Guide for Applying Management Framework to Federal
    Information Systems,” provides guidance to federal agencies in meeting security accreditation
    requirements. The iTRAX SA&A appears to have been conducted in compliance with NIST
    requirements.

II. FIPS 199 Analysis
    Federal Information Processing Standards (FIPS) Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems, requires federal agencies to
    categorize all federal information and information systems in order to provide appropriate levels
    of information security according to a range of risk levels.

    NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information Systems
    to Security Categories, provides an overview of the security objectives and impact levels
    identified in FIPS Publication 199.

    The iTRAX FIPS 199 Security Categorization Template analyzes information processed by the
    system and its corresponding potential impacts on confidentiality, integrity, and availability.
    iTRAX is categorized with a high impact level for confidentiality, moderate for integrity, low for
    availability, and an overall categorization of “high.”

    The security categorization of iTRAX appears to be consistent with FIPS 199 and NIST SP 800-
    60 requirements, and we agree with the categorization of “high.”

III. System Security Plan
    Federal agencies must implement on each information system the security controls outlined in
    NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information Systems
    and Organizations. NIST SP 800-18 Revision 1, Guide for Developing Security Plans for
    Federal Information Systems, requires that these controls be documented in a System Security
    Plan (SSP) for each system, and provides guidance for doing so.

    The SSP for iTRAX was created using the template outlined in NIST SP 800-18 Revision 1. The
    template requires that the following elements be documented within the SSP:

    •   System Name and Identifier;
    •   System Categorization;
    •   System Owner;
                                                    4
    •   Authorizing Official;
    •   Other Designated Contacts;
    •   Assignment of Security Responsibility;
    •   System Operational Status;
    •   Information System Type;
    •   General Description/Purpose;
    •   System Environment;
    •   System Interconnection/Information Sharing;
    •   Laws, Regulations, and Policies Affecting the System;
    •   Security Control Selection;
    •   Minimum Security Controls; and
    •   Completion and Approval Dates.

    We reviewed the iTRAX SSP and determined that it adequately addresses each of the elements
    required by NIST.

IV. Security Assessment Plan and Report
    A Security Assessment Plan (SAP) and Security Assessment Report (SAR) were completed for
    iTRAX in June and October 2013 as a part of the system’s SA&A process. The SAP and SAR
    were completed by a contractor that was operating independently from FIS and CACI. We
    reviewed the documents to verify that a risk assessment was conducted in accordance with NIST
    SP 800-30 Revision 1, Guide for Conducting Risk Assessments. We also verified that
    appropriate management, operational, and technical controls were tested for a system with a
    “high” security categorization according to NIST SP 800-53 Revision 3.

    The SAP outlined the assessment approach and test methods. The SAR identified 25 control
    weaknesses; 18 of those weaknesses were immediately remediated, and the remaining
    weaknesses were added to the iTRAX Plan of Action & Milestones (POA&M). A risk rating
    was applied to each weakness to determine the potential impact of exploitation.

    We also reviewed the Security Assessment results table that contained the detailed results of the
    NIST SP 800-53 Revision 3 controls testing. The table indicated that five controls were not fully
    satisfied. These controls were appropriately documented in the system POA&M for tracking.

    Nothing came to our attention to indicate that the security controls of iTRAX have not been
    adequately tested by an independent source.

V. Security Control Self-Assessment
    OPM requires that the IT security controls of each contractor-operated system be tested on an
    annual basis. In the years that an independent assessment is not being conducted on a system as
    part of an SA&A, the system’s owner must ensure that annual controls testing is performed by a
    government employee or an independent third party (i.e., the contractor operating the system
    should not act as the assessor).



                                                   5
     We reviewed the iTRAX security control tests for the past three years, and nothing came to our
     attention to indicate that the security controls of iTRAX have not been adequately tested.

     A fourth revision to NIST SP 800-53 was published in April 2013, and agencies are allowed one
     year to implement any new or modified NIST guidance. We informed FIS that they must
     conduct an analysis to determine if testing modifications are necessary to comply with NIST SP
     800-53 Revision 3 for the fiscal year 2014 security controls test.

VI. Contingency Planning and Contingency Plan Testing
     NIST SP 800-34 Revision 1, Contingency Planning Guide for Federal Information Systems,
     states that effective contingency planning, execution, and testing are essential to mitigate the risk
     of system and service unavailability. OPM’s security policies require all major applications to
     have viable and logical disaster recovery and contingency plans, and that these plans be annually
     reviewed, tested, and updated.

     Contingency Plan
     The iTRAX contingency plan documents the functions, operations, and resources necessary to
     restore and resume iTRAX operations when unexpected events or disasters occur. The iTRAX
     contingency plan adequately follows the format suggested by NIST SP 800-34 Revision 1 and
     contains the required elements.

     Contingency Plan Test
     NIST SP 800-34 Revision 1 provides guidance for testing contingency plans and documenting
     the results. Contingency plan testing is a critical element of a viable disaster recovery capability.

     A tabletop test of the iTRAX contingency plan was conducted by CACI officials in August 2013.
     The test involved documenting and discussing the recovery process for the iTRAX system. The
     testing documentation contained an analysis and review of the results. While the overall FIPS
     199 security categorization of iTRAX is “high,” the availability category is “low.” NIST SP
     800-34 Revision 1 states that tabletop exercises are sufficient testing for systems with a “low”
     availability categorization.

VII. Privacy Impact Assessment
     FISMA requires agencies to perform a screening of federal information systems to determine if a
     Privacy Impact Assessment (PIA) is required for that system. OMB Memorandum M-03-22
     outlines the necessary components of a PIA. The purpose of the assessment is to evaluate any
     vulnerabilities of privacy in information systems and to document any privacy issues that have
     been identified and addressed.

     FIS completed an initial privacy screening or Privacy Threshold Analysis of iTRAX and
     determined that a PIA was required for this system. A PIA was completed in June 2013 and
     approved by the system owner and CIO.




                                                       6
VIII. Plan of Action and Milestones Process
      A POA&M is a tool used to assist agencies in identifying, assessing, prioritizing, and monitoring
      the progress of corrective efforts for IT security weaknesses. OPM has implemented an agency-
      wide POA&M process to help track known IT security weaknesses associated with the agency’s
      information systems.

      We evaluated the iTRAX POA&M and verified that it follows the format of OPM’s standard
      template and has been loaded into Trusted Agent, the OCIO’s POA&M tracking tool, for
      evaluation. We determined that the weaknesses discovered during the SA&A security
      assessment were appropriately included in the POA&M. Nothing came to our attention to
      indicate that there are any current weaknesses in the management of the iTRAX POA&M.

 IX. NIST SP 800-53 Revision 3 Evaluation
      NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information Systems
      and Organizations, provides guidance for implementing a variety of security controls for
      information systems supporting the federal government. As part of this audit, we independently
      evaluated whether a subset of these controls had been implemented for the iTRAX. We tested
      approximately 55 security controls that were identified as being system-specific or a hybrid
      control. We tested one or more controls from each of the following control families:

      •   Access Control                              •   Media Protection
      •   Awareness and Training                      •   Planning
      •   Audit and Accountability                    •   Personnel Security
      •   Security Assessment and Authorization       •   Risk Assessment
      •   Configuration Management                    •   System and Services Acquisition
      •   Contingency Planning                        •   System and Communication Protection
      •   Identification and Authorization            •   System and Information Integrity

      These controls were evaluated by interviewing individuals with iTRAX security responsibilities,
      reviewing documentation and system screenshots, viewing demonstrations of system capabilities
      and conducting tests directly on the system.

      We determined that all tested security controls appear to be in compliance with NIST SP 800-53
      Revision 3 requirements with the following exceptions:

      1. Control AC-5 – Separation of Duties
          During interviews with subject matter experts we were informed that CACI application
          developers have access to the iTRAX production environment and have administrator
          privileges within the back-end software platform, Serena Business Manager. This situation
          constitutes a segregation of duties violation.

          NIST SP 800-53 Revision 3 states that organizations should separate duties of individuals as
          necessary, to prevent malevolent activity without collusion, document separation of duties,
          and implement separation of duties through assigned information system access

                                                      7
   authorizations. Failure to ensure separation of duties increases the risk that the application
   developers could make unauthorized or malicious modifications to the iTRAX application.

   Recommendation 1
   We recommend that FIS ensure that proper separation of duties is maintained within iTRAX
   and the back-end software platform.

   FIS Response:
   “FIS agrees with the recommendation and has taken action to resolve the issue prior to the
   report’s finalization. The iTRAX Development Team has been segregated into two groups
   to meet separation of duties requirements. Administrative privileges have been removed
   for all Developers except the Serena Development Team Lead (normally not involved in
   actual code development). The Serena Development Team Lead will be added to the
   Configuration Control Board (CCB) and will coordinate with approval procedures,
   internally review all code created on the development environment prior to production
   approval, and orchestrate periodic and planned iTRAX software updates to the production
   server. The supporting evidence has been supplied in the Post-Exit Brief Submission
   package.”

   OIG Reply:
   The evidence provided by FIS in response to the draft audit report indicates that adequate
   segregation of duties has been implemented; no further action is required.

2. Control AC-7 – Unsuccessful Login Attempts
   iTRAX servers and user workstations are not configured in accordance with OPM security
   guidelines. User accounts are appropriately configured to automatically lock after an
   incorrect password has been entered three times. However, the accounts automatically
   unlock after a predefined period of time; 15 minutes for workstations and 30 minutes for
   servers.

   The OPM Security and Privacy Policy Handbook requires that “the information system
   automatically locks the account until released by an administrator when the maximum
   number of unsuccessful attempts is exceeded.” Failure to enforce these guidelines increases
   the risk of unauthorized access to the system through a brute force attack.

   Recommendation 2
   We recommend that FIS ensure that iTRAX server and workstation account lockout settings
   are modified to comply with OPM policy.

   FIS Response:
   “FIS agrees with the recommendation. These requirements are appropriately met in
   regards to logging into the OPM CISCO VPN and at the iTRAX application interface thru
   PIV logon. However, the local machine login continues to use user id and password. As a
   result, the account unlock setting is currently 15 minutes. The iTRAX users are a remote

                                                8
workforce across the country and sending the laptop to a central location for an
Administrator to unlock the account (per the OPM policy) is not a feasible option based on
investigation timelines dictated by federal law.

FIS and the iTRAX technical teams have been pursuing internal conversations with OPM
and other parties to find a proper resolution for PIV authentication on the local endpoints.
POA&Ms (POA&Ms # FYI4-QI-ITRAX-03, FY14-QI-ITRAX-04 and FY14-QI-ITRAX-
05) are already in place regarding the need for PIV authentication of these devices. FIS
will provide more detail in the POA&Ms and will accurately reflect the condition in
Trusted Agent FISMA (TAF).”

OIG Reply:
As part of the audit resolution process, we recommend that FIS provide OPM’s Internal
Oversight and Compliance (IOC) division with evidence that server and workstation account
lockout settings are configured in compliance with OPM guidelines.

Control AU-6 – Audit Review, Analysis, and Reporting
iTRAX servers are configured to record the activity of privileged users (i.e., system
administrators). However, the event logs generated by these servers are only reviewed
retroactively if a problem has been reported or detected, and there is no process in place to
routinely review privileged user activity logs. Furthermore, there is no policy or procedure
documenting the process for reviewing audit logs or reporting anomalies.

NIST SP 800-53 Revision 3 requires that an organization “Reviews and analyzes information
system audit records . . . for indications of inappropriate or unusual activity, and reports
findings to designated organizational officials. . . .”

Failure to routinely review elevated user activity increases the risk that malicious activity
could go undetected and sensitive information could be compromised.

Recommendation 3
We recommend that FIS ensure that a documented process is in place to routinely review
iTRAX privileged user (administrator) activity.

FIS Response:
“FIS agrees with the recommendation and has taken action to resolve the issue prior to the
report's finalization. iTRAX did not have a documented procedure to satisfy this
requirement. Logs were monitored on an as needed basis, but no official audit procedure
existed for Administrator activity and no official reporting mechanisms were identified or
utilized. This situation has been resolved with newly introduced policy, procedure and
reporting documentation. The supporting evidence has been supplied in the Post-Exit
Brief Submission package.”




                                              9
OIG Reply:
The evidence provided by FIS in response to the draft audit report indicates that a policy,
procedures, and an event tracking template related to reviewing privileged user activity have
been created. As part of the audit resolution process we recommend that FIS provide IOC
with evidence that the template is being utilized in accordance with the new policy and
procedures.

Control PE-1 – Physical and Environmental Protection Policy and Procedures
Although the current employees at CACI facilities have an informal understanding of their
roles and responsibilities when responding to an emergency, the organization has not
formally documented emergency response procedures. We were told that CACI is in the
process of collecting and documenting procedures in one centralized repository, but they
have not done so at this time.

NIST SP 800-53 Revision 3 requires that an organization have “A formal, documented
physical and environmental protection policy that addresses purpose, scope, roles and
responsibilities, management commitment, coordination among organizational entities, and
compliance” and “Formal, documented procedures to facilitate the implementation of the
physical and environmental protection policy and associated physical and environmental
protection controls.”

Failure to establish documented emergency response procedures increases the likelihood that
personnel will not know how to respond in emergency situations within the computer room.

Recommendation 4
We recommend that FIS ensure that emergency response procedures are formally
documented for CACI facilities.

FIS Response:
“FIS agrees with the recommendation and has taken action to resolve the issue prior to the
report's finalization. FIS would like to specify the CACI facilities in question are
specifically those housing the IT infrastructure for the iTRAX system located at the Park
East Data Center in Chantilly, Virginia. Emergency response procedures have been
formally documented and will be attached to the System Security Plan. The supporting
evidence has been supplied in the Post-Exit Brief Submission package.”

OIG Reply:
The evidence provided by FIS in response to the draft audit report indicates that emergency
response procedures have been formally documented; no further action is required.




                                            10
                          Major Contributors to this Report
This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:

•                    , Group Chief
•                       , Auditor-In-Charge
•                , IT Auditor




                                              11
                                              Appendix 


                        United States Office of Personnel Management 





     TO: - - - ­
           ~tems Audits Group

  FROM:
                               ncr
           Chief, IT System Security & Access
           Federal Investigative Services

SUBJECT:   Response to "Draft" Report No. 4A-IS-00-14-017- Dated· January 28, 2014

           OIG Recommendation 1:
           We recommend that FIS ensure that the iTRAX system is subject to a functional disaster
           recovery test and that the system can be fully recovered at the backup location.

           FIS Response:
           FIS respectfully disagrees with the OIG recommendation and requests an opportunity for further
           di scussion on this finding . In August 2013, a full interrupt test and server rebuild was completed
           for the iTRAX system as identified in the System Security Plan (SSP) dated October 2013. In
           addition to the actual contingency situation declaration in August, a table top exercise was also
           completed and with successful results reported.

           FIS would also request and opportunity to discuss the OPM policy on security control seeping
           guidance. Although the overall system categorization of the iTRAX system is "High", the FIPS
           199 indicates a " Low" categorization for "Availability". Based on our understandi ng of OPM
           policy and the requirements identified in NIST 800-34 Revl, we believe tape back-up and plans
           for relocation to a cold site should fully satisfy the requirement.

           OIG Recommendation 2: 

           We recommend that FIS ensure that proper separation of duties is maintained within iTRAX and 

           the back-end software platform. 


           FIS Response:
           FIS agrees with the recommendation and has taken action to resolve the issue prior to the
           report's finalization . The iTRAX Development Team has been segregated into two groups to
           meet separation of duties requirements. Administrative privileges have been re moved for all
           Developers except the Serena Development Team Lead (normally not involved in actual code
           development). The Serena Development Team Lead will be added to the Configuration Control
           Board (CCB) and will coordinate with approval procedures, internally rev iew all code created on
           the development environment prior to production approval, and orchestrate periodic and planned
           iTRAX software updates to the production server. The supporting evidence has been supplied in
           the Post-Exit Brief Submission package.
OIG Recommendation 3:
We recommend that FIS ensure that iTRAX server and workstation account lockout settings
are modified to comply with OPM policy.

FIS Response:
FIS agrees with the recommendation. These requirements are appropriately met in regards to
logging into the OPM CISCO VPN and at the iTRAX application interface thru PIV logon.
However, the local machine login continues to use user id and password. As a result, the account
unlock setting is currently 15 minutes. The iTRAX users are a remote workforce across the
country and sending the laptop to a central location for an Administrator to unlock the account
(per the OPM policy) is not a feasible option based on investigation timelines dictated by federal
law.

FIS and the iTRAX technical teams have been pursuing internal conversations with OPM and
other parties to find a proper resolution for PIV authentication on the local endpoints. POA&Ms
(POA&Ms # FY14-Ql-ITRAX-03, FY14-Ql-ITRAX-04 and FY14-Ql-ITRAX-05) are already
in place regarding the need for PIV authentication of these devices. FIS will provide more detail
in the POA&Ms and will accurately reflect the condition in Trusted Agent FISMA (TAF).

OIG Recommendation 4:
We recommend that FIS ensure that a documented process is in place to routinely review iTRAX
privileged user (administrator) activity.

FIS Response:
FIS agrees with the recommendation and has taken action to resolve the issue prior to the
report's finalization. iTRAX did not have a documented procedure to satisfy this requirement.
Logs were monitored on an as needed basis, but no official audit procedure existed for
Administrator activity and no official reporting mechanisms were identified or utilized. This
situation has been resolved with newly introduced policy, procedure and reporting
documentation. The supporting evidence has been supplied in the Post-Exit Brief Submission
package.

OIG Recommendation 5:
We recommend that FIS ensure that emergency response procedures are formally documented
for CACI facilities.

FIS Response:
FIS agrees with the recommendation and has taken action to resolve the issue prior to the
report's finalization. FIS would like to specify the CACI facilities in question are specifically
those housing the IT infrastructure for the iTRAX system located at the Park East Data Center in
Chantilly, Virginia. Emergency response procedures have been formally documented and will
be attached to the System Security Plan. The supporting evidence has been supplied in the Post­
Exit Brief Submission package.
